LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 15, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-767: NATIONAL ASSOCIATION FOR GUN RIGHTS, INC. V. JEFF MANGAN, IN
HIS OFFICIAL CAPACITY AS MONTANA'S COMMISSIONER OF POLITICAL
PRACTICES
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae Institute for Free
Speech, on January 15, 2020, I caused service to be made pursuant to Rule 29 on the
following counsel for the Petitioner and Respondent:
PETITIONER:
David Alan Warrington
Kutak Rock LLP
1625 Eye Street NW
Suite 800
Washington, DC 20006
202-828-2437
david.warrington@kutakrock.com

RESPONDENT:
Matthew Thompson Cochenour
State of Montana - Department of
Justice Attorney General's Office
215 North Sanders; PO Box 201401
Helena, MT 59601
406-444-2026
mcochenour2@mt.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
Institute for Free Speech in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of January 2020.

